APPENDIX
PETITION FOR A WRIT OF CERTIORARI
George Berka,
Petitioner,
v.
City of Middletown, Et. Al.,
Respondents.

TABLE OF CONTENTS
Connecticut Supreme Court’s Denial of Petition for Certification
Opinion of the Connecticut Appellate Court....................................
Superior Court Docket Entries....................................... ...................
Judgment of the Superior Court.......................................................
Blight Citation.....................................................................................

Al
A2
A8
A10
A12

1. Connecticut Supreme Court’s Denial of Petition for Certification:

SUPREME COURT
STATE OF CONNECTICUT

i

PSC-200484
GEORGE BERKA
v.
CITY OF MIDDLETOWN
ORDER ON PETITION FOR CERTIFICATION TO APPEAL
The plaintiffs petition'for certification to appeal from the Appellate Court, 205 Conn.
App. 760 (AC-43853), is denied.

Page Al of A15

i

George Berka, self-represented,party, in support of the petition.
Decided June 29, 2021
By the Court.
Is!
Rene L. Robertson
Deputy Chief Clerk

Notice Sent: June 29, 2021
Petition Filed: June 10, 2021
Clerk, Superior Court, MMX-CV18-5010856-S
. Hon. Edward Domnarski
Clerk, Appellate Court
Reporter of Judicial Decisions
Staff Attorneys’ Office
Counsel of Record

2. Opinion of the Connecticut Appellate Court:
*****************************************,1.*****

The officially released date that appears near the beginning of each opinion is the date the opinion
will be published in the Connecticut Law Journal or the date it was released as a slip opinion. The
operative date for the beginning of all time periods for filing post-opinion motions and petitions for
certification is the “officially released” date appearing in the opinion.
All opinions are subject to modification and technical correction prior to official publication in the
Connecticut Reports and Connecticut Appellate Reports. In the event of discrepancies between the
advance release version of an opinion and the latest version appearing in the Connecticut Law Journal
and subsequently in the Connecticut Reports or Connecticut Appellate Reports, the latest version is to
be considered authoritative.
The syllabus and procedural history accompanying the opinion as it appears in the Connecticut Law
Journal and bound volumes of official reports are copyrighted by the Secretary of the State, State of
Connecticut,, and may not be reproduced and distributed without the express written permission of the
Commission on Official Legal Publications, Judicial Branch, State of Connecticut.
************************
.

Page A2 of A15

'

GEORGE BERKA v. CITY OF MIDDLETOWN ETAL. (AC 43853)
Alvord, Elgo and Albis, Js.
Syllabus
The plaintiff appealed to the Superior Court from the decision of the defen'* dant citation hearing officer for the
defendant city of Middletown uphold- ing a citation assessed against him for violating the city’s anti-blight
ordinance. The court upheld six of the seven blight violations alleged against the plaintiff and calculated a
resulting fine, from which the plaintiff appealed to this court. Held- .
1. The trial court properly granted the defendants’ motion to strike the plaintiffs request for a jury trial; the
plaintiff cited no authority that would support his challenge to the plain language of the rule of practice (§ 23-51)
that governs petitions to reopen citation assessments and pro- vides that there is no right to a hearing before a
jury in such circum-stances.
2. The plaintiff could not prevail on his claim that the citation hearing officer had a conflict of interest- the plaintiff
never raised this issue before the citation hearing officer, which precluded him from raising the issue oh appeal;
moreover, even if the citation hearing officer had a conflict of interest, the hearing on appeal before the trial
court was a de novo proceeding, and any possible prejudice would have been cured because; the deeisionof the
trial court, not that of the citation hearing officer, was on appeal.
...
3. This court declined to address the merits of the plaintiffs constitutional claims as they were not properly
before the trial court, which never ruled on them, and could not be reviewed for the first time on appeal: the
plaintiff filed a request to amend his complaint that included constitu- tional claims three days prior to the de novo
hearing, and his attempted amendment failed to comport with the requirements of the rules of practice (§§
10-land 10-60) regarding the amendment of pleadings, such that the court sustained the defendants’objection
to the plaintiffs request to amend; accordingly, the court did not abuse its discretion in refusing to permit the
plaintiff to amend his petition or to argue those constitutional issues at the de novo hearing.
4. The trial court’s factual findings challenged by the plaintiff on appeal were not clearly erroneous! the
findings were supported by evidence iii the record, and this court'was not left with a definite and firm
conviction that any mistake had been committed.
Argued February 3—officially released June 8, 2021
Procedural History

Petition to reopen a citation assessment issued by the named defendant, brought to the Superior
Court in the judicial district of Middlesex, where the court, Domnarski, J., granted the defendants’
motion to strike the plaintiffs claim for a jury trial! thereafter, the court, Hon. Edward S. DomnarsJd,
judge trial referee, ren* dered judgment denying the petition, from which the plaintiff appealed to
this court. Affirmed.
,
• • ' •
i;George Berka, self-represented, the appellant (plain* tiff).
Brig Smith, general counsel, for the appellees (defen- dants).

Opinion

,

ALBIS, J. The plaintiff, George Berka, appeals from the judgment of the trial court denying.his
petition to reopen a municipal blight citation assessment and upholding a failure to pay fines
notice issued by the defendant city of Middletown (city), with respect to six blight violations that
existed on the plaintiffs rental property located.at 5 Maple Place in Middletown (prop-erty).
Specifically, the plaintiff claims that (l) he should have been granted a jury trial, (2) he should have
been allowed to raise constitutional issues related to the blight ordinance at his appeal hearing,
(3) the blight citation violated his constitutional rights, (4) boarded windows should not constitute
Page A3 of A15

blight, (5) it was neither fair nor reasonable to expect him to pour concrete and to paint in the winter,
(6) the blight enforcement officer was not qualified to make structural assessments about the property,
(7) the siding on his home was not “seri- ously damaged,” (8) the outside structural walls of his home
were watertight, (9) there was no garbage, rub- bish, or refuse being stored or accumulated in
public vieyr, and (10) the hearing officer, defendant Sylvia K. Rutkowska,1 had a conflict of interest.
We disagree, and, accordingly, affirm the judgment of the trial court.
The following chronology is drawn from the trial court’s memorandum of decision. “By letter dated
Janu- ary 10, 2018, the [city] gave the plaintiff a notice of blight for [the property] .... The
notice referred to seven blight conditions.2 ... The [city] issued the plaintiff a blight citation on
February 14, 2018, for the seven separate violations of the blight ordinance and imposed a $100 per
day civil fine for each violation.
. . . On March 28, 2018, the [city] issued a failure to pay fines notice for blight violations.. . . The
failure to pay fines notice stated that accumulated fines totaled
$29,400 (42 daysx $700). The notice also advised the plaintiff of his right to appeal. An appeal
hearing was conducted by a citation hearing officer on May 2, 2018. The hearing officer issued a
revised notice of decision/ assessment on May 7, 2018, assessing fines through the date of the appeal,
which resulted in a total of $53,900 (77 days x $700).” (Citations omitted; footnote added.)
The plaintiff appealed that decision to the Superior Court by filing a petition to reopen a municipal
blight citation assessment pursuant to General Statutes § 7*
152c (g) and Practice Book § 23*51,3 and the court held a de novo hearing on the petition on November
7,2019.4
At that hearing, the court heard testimony from Michelle Ford, the blight enforcement officer for the
city at the time of the May 2, 2018 hearing. Ford testified that she had inspected the subject
property on February 13,
20i8, and March 27, 2018, that'she took photographs of the alleged blight conditions on both
occasions, arid that she issued the blight citation and failure to pay fines notices. In its January 16,
2020 memorandum of decision, the court upheld six of the seven blight viola- tions.5 The court
explained that it had carefully consid- ered Ford’s testimony and thoroughly reviewed the
[inspection] photographs, and that it found that six violations existed on, and the fines accrued from,
Febru- ary 14, 2018, through March 27, 2018. The court calcu- lated the resulting fine as $25,200 (42
days x $600). This appeal followed. Additional facts will be set forth as necessary.
I
The plaintiff claims that he was entitled to a jury trial in his appeal of the blight citation. We disagree.
The following additional facts are relevant to our resolution of this claim. On November 13, 2018,
the plaintiff requested a jury trial of his appeal. On October
30, 2019, the defendants filed a motion to strike the plaintiffs request for a jury trial on the
ground that there is no right to a jury trial in citation assessment appeals pursuant to Practice
Book § 23*51 (c). On November 6, 2019, the court granted the defendants’ motion.
The plaintiffs claim is governed by Practice Book
§ 23*51, which is titled “Petition To Open Parking or Citation Assessment,” and provides in
subsection (c) that“[t]he hearing on the petition shall be de novo. There shall be no right to a
hearing before a jury.” Nevertheless, the plaintiff argues that “blight citations are grouped together
with parking tickets, which are generally around $20 ... . Perhaps the authors here had these
types of ‘small’ citations in mind when writing this section, and it is understandable that they likely
saw these small citations as ‘too trivial’ to warrant a jury trial. However, a $53,900 blight fine is a
far cry from a $20 parking ticket! Doesn’t a case in which a person’s home is on the line deserve a
hearing before a jury?” The plaintiff cites no authority that would sup* port his challenge to the plain
Page A4 of A15

language of § 23-51. We are not persuaded, and, accordingly, the triai court properly granted'the
defendants’ motion to' strike the plaintiffs request for a jury trial. '
' . ,
II
The plaintiff next claims that Rutkowska “may have had a conflict of interest.” He claims that
“[plrior to being permitted to appeal his blight citation to the Supe- rior Court, [he was required to]
attend a hearing on the matter before the city officials and a ‘citation hearing officerwhom the city
designates. Th[e] hearing officer who presided over this hearing . . . Rutkowska, is actually a local
attorney, who has business dealings and an attorney-client relationship with the city.” (Emphasis •
'
omitted.) The plaintiff, therefore, claims that Rutkow- ska was unlikely to be objective and that her
potential conflict of interest “may have caused the plaintiff to be prejudiced . '. . .”
At oral argument before this court, the plaintiff.con- ceded that he never raised this issue at the
hearing before Rutkowska. The failure to raise the claim of bias of the administrative hearing officer at
the time of the hearing precludes the plaintiff from raising the issue on appeal. See Moraskf v. ;
ConnecficufBoard ofExam-iners 'OfEmbalmers & Funeral Directors, 291 Conn.242, 261-62, 967 A.2d 1199 (2009). Moreover, even if Rutkowska did have a conflict of interest, as the
plaintiff claimed, the hearing on appeal before the trial court was a de novo proceeding, and,
therefore, any possible prejudice would be cured. Because the decision of the trial court, and hot that
of Rutkowska, is currently on appeal, we agree with the court that the de novo hearing on appeal
before the trial court cured any possible prejudice to the plaintiff.
Ill
We next turn to the plaintiffs two constitutional argu- ments. The plaintiff claims that (l) he should have
been permitted to raise constitutional issues with respect to his blight citation during the appeal
hearing, and (2) the blight citation violated the first, fourth, fifth, and eighth amendments to the
United States constitution. We conclude that the trial court did not abuse its discre- tion in denyingthe
plaintiffs requests to raise those constitutional claims, and, consequently, we decline to address them
on their merits.
The following additional facts are relevant to our resolution of these claims. On November 4, 2019,
the plaintiff filed a request to amend the complaint and an amended complaint6 that included his
constitutional claims. The defendants objected to that request on November 5, 2019, and the court
sustained their objec- tion on December 5, 2019. Nevertheless, the plaintiff notes in his appellate brief
that, “during the hearing, the plaintiff had again asked the judge if he could present testimony as to
why he believed this entire blight cita- tion to be unconstitutional in the first place, and, again, the
judge denied the plaintiff s request.”
Practice Book § 10-60 provides in relevant part: “(a)
. . . [A] party may amend-his or her pleadings . . . at any time . . \ .in the following manner: (l)
By order of judicial authority; or (2) By written consent of the adverse party! or (3) By filing a
request for leave to file an amendment together with . ... .(B) an additional document showing the
portion or portions of the origi- nal pleading or other parts of the record or proceedings with the
added language underlined and the deleted language stricken through or bracketed.. . .
“(b) The judicial authority may restrain such amend- ments so far as may be necessary to compel the
parties to join issue in a reasonable time for trial. . ,. .”
“Whether to allow an amendment is a matter left to the sound discretion'of the. trial court. [An .
appellate] court will not disturb a trial court’s ruling on a proposed amendment unless there has
been a clear abuse of that discretion. ... It is the [amending party’s] burden

Page A5 of A15

. . . to demonstrate that the trial court clearly abused its discretion.” (Internal quotation marks
omitted.) GMAC Mortgage, LLC v. Ford, 144.Conn. App. 165,184,
73 A.3d 742 (2013).
Practice Book § 23*51 provides in relevant part: “(a) Any aggrieved person who wishes to appeal a
parking or citation assessment issued by a town, city, borough or other municipality shall file with
the clerk of the court within the time limited by statute a petition to open assessment with a copy
of the notice of assess* ment annexed thereto. ...
“(b); Upon receipt of the petition, the clerk of the court . .'. shall 'set a hearing date on the petition
and shall notify the parties thereof. There shall be no plead* ings subsequent to the petition.”
The record reveals that the plaintiff filed his request to amend on November 4, 2019, merely three days
prior to the de novo hearing that was held on November
7, 2019, and that his attempted amendment failed to comport with the requirements of Practice Book
§§ 10* .
1 and 10*60 (a) (3). Accordingly, we conclude that the trial court did not abuse its discretion in
refusing to permit the plaintiff to amend his petition or to argue those constitutional issues at the
de novo hearing.
Consequently, because the plaintiffs constitutional arguments were not properly before the trial
court, which, therefore, never ruled on them, we cannot review them for the first time on appeal.
“Our appellate courts, as a general practice, will not review claims made for the first time on
appeal.” (Internal quotation marks omitted.) Guzman v. Yeroz, 167 Conn. App. 420,
426,143 A.3d 661, cert, denied, 323 Conn. 923, 150 A.3d
1152 (2016).- “It is well established that [a] party cannot present a case to the trial court on one theory
and then seek appellate relief on a different one . . . .” (Internal quotation marks omitted.) Council v.
Commissioner of Co/rectfoa 286 Conn. 477, 498, 944 A.2d 340 (2008).
r
“[Ain appellate court is under no obligation to consider a claim that is not distinctly raised at the
trial level.
. . . [Blecauseour review is limited to matters in the record, we [also] will not address issues not
decided by the trial court.” (Citations omitted; internal quotation marks omitted.) Burnham v. Karl &
Gelb, P.C., 252
Conn. 153,170-71, 745 A.2d 178(2000); see also Practice Book § 60*5. Accordingly, we decline to
address the merits of the plaintiff s constitutional claims.
■ IV

-

■

■

Finally, the plaintiff challenges six of the trial court’s findings of fact. Specifically, he claims that
boarded windows should not constitute blight, that it was neither fair nor reasonable to expect him to
pour concrete and to paint in the winter, that the blight enforcement officer was not qualified to make
structural assessments about the property, that the siding on his home was not “seri* ously damaged,”
that the outside structural walls of his home were watertight, and that there was no garbage, rubbish,
or refuse being stored or accumulated in public view. We conclude that the court’s factual findings are
not clearly erroneous.
“The trier of facts is the judge of the credibility of the testimony and of the weight to be accorded it.
... [A finding of fact] will not be reversed or modified unless it is clearly erroneous in light of
the evidence and the pleadings in the record as a whole. ... A finding of fact is clearly
erroneous when there is no evidence in the record to support it ... or when although there is
evidence to support it, the reviewing court on the entire evidence is left with the definite and firm
conviction that a mistake has been committed.

Page A6 of A15

I

... The weight to be given to the evidence and to the credibility of witnesses is solely within the
determina- tion of the trier of fact. . . . In reviewing factual find-ings^ [w]e do not examine .the
record to determine whether the [court] could have reached a conclusion other than the one
reached. . . . Instead, we make every reasonable presumption .... in favor of the, trial courts.
ruling.” (Citation omitted; footnote omitted; internal quotation marks omitted.),Cohen :y. ..Rpll-ACover, LLC, 131 Conn. App. 443, 450-51, 27 A.3d l,cert. denied, 303 Conn. 915, 33A.3d.739 (2011). ,
The factual findings challenged by the plaintiff on appeal were supported by evidence in the.record,
and we are not left with a definite and firm conviction that any mistake has been committed.. With
respect to the plaintiffs claim that he should not have been required to paint and pour concrete in
the winter, we further note that the plaintiff conceded at oral argument before this court that he did
no t request additional time from the city to comply with those requirements in warmer weather. ■ ■
Additionally, we need not reach the issue of the blight enforcement -officer’s qualifications, because
the trial court determined independently, after reviewing the photOgraphs of the property,
that the structural blight conditions existed. The trial court’s findings are not clearly erroneous.

The judgment is affirmed.

. ..

,

• ,

,

...

..

In this opinion the other judges concurred.
1 In this opinion we refer to the city and Rutkowska individually by name where necessary and collectively as the
defendants.
2 In its decision, the court noted the blight conditions referenced in the notice of blight as follows: “(l) missing,
broken or boarded windows or doors, if the building is not vacant or abandoned ... . (2) broken glass, crumbling
stone or other conditions reflective of deterioration or inadequate maintenance . . . (3) a collapsing or missing exterior
wall, roof, floor, stairs, porch, railings,.basement<hatchways, chimneys, gutters, awnings or other features . . .,(4)
siding or roofingthat is seriously damaged, missing, faded or peeling! (5) the outside structure walls are not
weather [tight] [or] water- tight, that is evidenced by having any holes, loose boards, or any broken, cracked or .
damaged siding that admits rain, cold air, dampness, rodents, insects or vermin ... (6) garbage, rubbish, refuse,
accumulating refuse, putrescible items, trash or other accumulated debris that is being stored or accumulated in public
[and] (7) abandoned or inoperable vehicles are improperly stored on the premises ...” (Citations omitted.)
view .

'

3 General Statutes § 7-152c (g) provides: “A person againstwhom an assessment has been entered pursuant to this
section is entitled to judicial review by way of appeal. An appeal shall be instituted within thirty days of the mailing of
notice of such assessment by filing a petition to reopen assessment, together with an entry fee in an amount equal to
the entry fee for a small claims case pursuant to section 52-259, at a superior court facility designated by the Chief Court
Administrator, which shall entitle such person to a hearing in accordance with the rules of the judges of the Superior Court.”
Practice Book § 23-51 provides: ‘‘(a) Any aggrieved person who wishes
to appeal a parking or citation assessment issued by a town, city, borough or other municipality shall file with the
clerk of the court within the time limited by statute a petition to open assessment with a copy of the.notice.of . ;
assessment annexed thereto. A copy of the petition with the notice of assessment annexed shall be sent by the
petitioner by certified mail to the town, city, borough or municipality involved.
,
,
“(b) Upon receipt of the petition, the clerk of the court, after consultation with the presiding judge, shall set a hearing
date on the petition and shall notify the parties thereof. There shall be no pleadings subsequent to the peti- tion.
“(c) The hearing on the petition shall be de novo.- There shall be. no: right to a hearing before a jury.”

4 The parties refer to the petition as a “complaint.”

.

1

■

■

6 With respect to the seventh alleged violation, the court found that there was no evidence to establish that the trailer
stored on the plaintiffs property was mechanically inoperable.

■ 6 See footnote 4 of this opinion.

''

,'

> '

■

' .

'

• ' : 1

’

''

>>
I

Page A7 of A15

i

3. Superior Court Docket Entries •
Motions / Pleadings / Documents / Case Status
EolryJte EilsJBatt

Filed Bv Description

06/07/2018

0

APPEARANCE 5*
Appearance

07/05/2018

0

APPEARANCE W
Appearance

03/11/2020

O

APPEARANCE 5*
Appearance

10/01/2020
100.30

*

Arguable

ADMINISTRATIVE DOCUMENTS1
Appeal Transmittal of Exhibits

05/08/2018

P

100.31

05/08/2018'

P

101.00

05/08/2018

P

RETURN OF SERVICE B*

No

102.00

07/05/2018

o

requesttoreviseS*

No

103.00

07/13/2018

P

ANSWER !*
Reply lo Cty's Request to Revise

No

104.00

11/13/2018

D

SCHEDULING OROER P
RESULT: Denied 11/13/2018 HON JOSE SUAREZ

No

104.10

11/13/2018

C

ORDER E?
order entered in error; VACATED
RFStltT Denied 11/13/7018 HON JORF S1IARF7
Watermark
Last Updated: Additional Description -11/13/2018

No

104.20

11/13/2018

c

ORDER !*
alternate trial dates to be proposed ...
RESULT: Denied 11/13/2018 HON JOSE SUAREZ

No

105.00

11/13/2018

p

CLAIM FOR JURY OF 6 GP
Last Updated: Result Information -11/13/2018

Nu

106.00

11/20/2018

D

SCHEDULING ORDER 5*
RESULT: Accepted 11/21/2018 HON JOSE SUAREZ

No

106.10

11/21/2018

c

ORDERS’
RCCULT: Accepted 11/21/20101 ION JOSE SUARCZ

No

PROCEEDINGS FOR ENFORCEMENT OF MUNICIPAL REGULATIONS AND ORDINANCES CGS7152b>7-1S2c (JD-Cy-2Q) ex

NO
No

MUNICIPAL NOTICE OF ASSESSMENT COS 7-1S2b and 7-1S2cl^

107.00

11/21/2018

P

CERTIFICATE OF CLOSED PLEADINGS AND CLAIM FOR TRIAL LIST 5*

No

108.00

06/10/2010

P

MOTION FOR CONTINUANCE OP
RESULT: Order 6/19/2019 HON MATTHEW FRECHETTE

No

108.01

06/19/2019

C

ORDER 9
RESULT: Order 6/19/2019 HON MATTHEW FRECHETTE

No

109.00

10/24/2019

P

NOTICE G*
Revised Notice of Decision from Citation Hearing Officer; (Now Includes Total Fines)

No

110.00

10/25/2019

p

amendment!*

No

Addendum to Initial Complaint
111.00

10/30/2019

D

objection!1
Defendant's Objection to Plaintiffs Amended Complaint
RESULT: Sustained 12/5/2019 HON EDWARD DOMNARSK

No

111.10

12/05/2019

c

ORDERS’
RESULT: Sustained 12/5/2019 HON EDWARD DOMNARSK

Nu

112.00

10/30/2019

D

MOTION TO STRIKE!1
Motion to Strike the Plaintiffs Claim for Jury Trial
RESULT: Granted 11/6/2019 HON EDWARD D0MNARSKI

117 10

11/08/2019

c

order!*

Yes

Nn

RESULT: Granted 11/6/2019 HON EDWARD DOMNARSKI
113.00

10/30/2019

D

No

MEMORANDUM IN SUPPORT OF MOTION S’
Memorandum of Law in Support of Motion to Strike Plaintiff’s Claim for Jury Trial

Page A8 of A15
;

?

114.00

10/31/2019

p

No

MPJLOlLEPS^ONJlWUfiNeg ©
To revise complaint.

________ ________ .

114.10

10/31/2019

C

ORDER C?
___
RESULT: Denied 1001/2019 HON.MATTHEW FRECHETTE .

115.00

10/31/2019

D

OBJECTION E?
RESULT: Sustained 12/5/2019 HON EDWARD DOMNARSKI

115.10

12/05/2019

C

ORDER GP

NO
NO
No

RESULT: Sustained 12/5/2019 HON EDWARD DOMNARSKI
116.00

10/31/2019

P

REQUESTTO REVISE C?
RESULT: Withdrawn 10/31/2019 BY THE PLAINTIFF

117.00

10/31/2019

P

REQUEST TO REVISE ®
Clarification
RESULT. Withdrawn 1G/31/201B BY THE PLAINTIFF

118.00

11/01/2019

P

WITHDRAWAL OFMOJON
Withdrawal of REQUEST TO REVISE, 116.00

119.00

11/01/2019

p

WITHDRAWAL OF MOTION (5
Withdrawal of REQUEST TO REVISE. Clarification, 117.00

120.00

11/01/2019

p

REVISED COMPLAINT0
Per Defendant’s REQUEST TO REVISE, Dated 0745-2018

121.00

11/04/2019

P

REQUEST TO AMEND COMPLAINT/AMENDMENtE?
tdotion for Leave to Amend Complaint

122.00

11/04/2019

p

AMENDED COMPLAINT 5*
Amended Blight Citation Appeal____________________ ____

123.00

11 <05/2019

D

OBJECTION (5
Objection to and Request to Revise lor Amended Petitions
RESULT Sustained 12/5/2019 HON EDWARD DOMNARSKI •

123.10

12/05/2019

c

ORDER t?
RESULT: Sustained 12/5/2019 HON EDWARD DOMNARSKI

124.00

01/18/2020

C

JUDGMENT AFTER COMPLETED TRIAL TO THE COURT WITH NO JURY
RESULT: HON EDWARD DOMNARSKI

125.00

01/16/2020

C

ORDER E?
RESULT: Order 1/16/2020 HON EDWARD DOMNARSKI

126.00

01/27/2020

P

APPEAL TO APPELLATE COURT ALL FEES PAID B1

127.00

08/03/2020

p

PROPOSED JUDGMENT FILE 15

128.00

06/10/2020

C

JUDGMENT FILE (5

129.00

03/11/2070

D

^
Motion to Terminate Stay

129.10

05/27/2021

C

ORDER 15
RESULT: Order 5/27/2021 HON EOWARD DOMNARSKI

130.00

03/13/2020

P

APPELLATE COURT MATERIAL W
Objection to Motion to Terminate Stay

131.00

05/20/2021

P

:

No
No

No
No

.. INo
No
No
No

No
No

No
No
No
No
No
No
No
No

Request toAppear Tetephonically
131.10

05/21/2021

C

ORDER 15
RESULT: Granted 5/21/2021 HON EDWARD DOMNARSKI

132.00

05/21/2021

D

LISTOF EXHIBITS IJD.CL.g8/JP-CL-28al G?

133.00

os/os^oai

C

APPELLATE COURT OECISIONJUDOMEN3l/QBBSR£EJIB>&LC-QURIAEElBMEP.®
RESULT: BY THE COURT
___-J______________ _

134.00

06/10/2021

P

APPELLATE COURT MATERIAL 15
Pei Cert to Supreme Coun_______

135.00

06/29/2021

C

APPELLATE COURT MATERIAL 15
Denial of Pet Cert

No

No
No
No
.

-No

Page A9 of A15
i

4. Judgment of the Superior Court :
DOCKETNO.: MMX-CV18-5010856-S

SUPERIOR COURT

GEORGE BERKA
57 Concord St.
Waterbury, CT 06710

JUDICIAL DISTRICT
OF MIDDLESEX

V.

AT MIDDLETOWN

CITY OF MIDDLETOWN
245 DeKoven Dr.
Middletown, CT 06457
SYLVIA K RUTKOWSKA
,148 Broad Street
Middletown, CT 06457

JANUARY 16,2020
Present: Hon. Edward Domnarski, Judge

JUDGMENT
This action, by writ and complaint, in the nature of a petition to open a municipal blight citation
assessment, came to this Court on May 8,2018, with a Return Date of June 5,2018, and thence
on June 7,2018, when the defendant, appeared, and thence on July 5,2018 when the defendants
filed a Request to Revise, and thence on July 13, 2018 when the plaintiff filed an Answer to the
Request to Revise, and thence on November 13, 2018, when the plaintiff riled a Claim for Jury,
and thence on October 30,2019, when the defendants riled a Motion to Strike the plaintiff s
Claim for Juiy, and thence on November 1,2019, when the plaintiff filed a Revised Complaint,
and thence on November 4, 2019 when the plaintiff filed an Amended Complaint, and thence on
November 5,2019, when the defendant filed an Objection to the plaintiffs Amended Complaint,
and thence on November 6,2019, when the Court granted defendant’s Motion to Strike the
Claim for Jury, and thence on December 5,2019, when fee Court sustained defendant's
Objection to fee plaintiffs Amended Complaint.
The Court, having heard the parties on November 7, 2019, upholds the failure to pay fines
notice as to six blight violations with each violation incurring a fine of $100 per day, for a total
of $600 per day. The violations existed on, and the fines accrued from, February 14,2018 to
March 27,2018, which covers forty two days. Consequently, the plaintiff is assessed fines of
$25,200 (42 days x $600). The plaintiff's petition is denied

Page A10 of A15

WHEREUPON, it is adjudged that on January 16,2020 judgment enters in favor of the
defendants.
i

By the Court,

Debora Kaszuba-Neary,
Chief Cierk
t>j\ °l Vo
i

:
!:

r

i

Page All of A15

i

5. Blight Citation

City of Middletown
Department of Planning, Conservation & Development
245 dcKoven Drive
Middletown, CT 06457
860-638-4840
KWH'. miHdlelnwnnlannins.com

BLIGHT CITATION
CERTIFIED MATL RETURN RECEIPT REQUESTED: 7017 1070 0000 7743 2754
George Berka, Jr.
305 W. 6lh Street
Wilmington, DE 19801
CERTIFIED MAIL RETURN RECEIPT REQUESTED: 7017 1070 0000 7743 2761
New Alliance Bank
195 Church St.
New Haven. CT 06510
CERTIFIED MAIL RETURN RECEIPT REQUESTED: 7017 1070 0000 7743 2723
George Berka, Jr.
57 Concord St.
Watcrbury, CT
06710
VIA ELECTRONIC MAIL: gbcrka57@comcast.net

February 14,2018
PROPERTY LOCATION:

5 Maple Place, Middletown, CT
Map/Lot: 34/0133
Zone: RPZ

PROPERTY OWNER:
OWNER MAULING ADDRESS:

George Berka, Jr.
305 W. 6,h Street, Wilmington, DE 19801 &
57 Concord St., Waterbury, CT 06710

Page A12 of A15

The City of Middletown’s Zoning Enforcement Officer issued a Notice of Blight dated January 10,
2018, for violations of Chapter 120, Article II, § 120-20 and §120-25 of the City of Middletown’s Code
of Ordinances (referred to herein as- the “Code”) which existed on the above noted property located at
5 Maple Place, Middletown, Connecticut. Hie Notice of Blight provided that such violations were
required to be remediated by Friday, February 9, 2018.
, .
On Tuesday, February 13,2018 the Zoning Enforcement Officer conducted another inspection of your
Property, which revealed that the violations were not remediated by the deadline set forth in the Notice
of Blight. Due to your failure to remediate the violations on the Properly, by the authority granted
pursuant to C.G.S. § 7-148(c)(7)(H)(xv); as amended, and Chapter 120, Article II, Section 120-25 of
the Middletown Code of Ordinances, as amended:
February 14, 2018
Page 2

YOU ARE HEREBY SERVED WITH A CITATION OF $700 FOR VIOLATIONS OF THE
CITY OF MIDDLETOWN’S CODE OF ORDINANCES ON THE PROPERTY. THE CITED
FINES MUST BE PAID AND THE VIOLATIONS ON THE PROPERTY MUST BE
REMEDIATED NO LATER TH AN March L 2018.
You have fifteen (15) days from the dale of this notice, until Thursday, March 1,2018 to pay the
fines in full on an uncontested basis and to remediate the violations on the Property. If any violations
on the Property are ongoing, maintained or are re-established, the failure to remediate such violations
by such date may result in the imposition of additional fines.
THE SPECIFIC NAT URE OF T HE VIOLA TTON(S) CIT ED IS/A RE DESCRIBED AS
FOLLOWS:
□

iE)

It is determined by the City that existing conditions pose a serious or immediate danger to
the health, safety or welfare of any person or the community. (§120-20A (1))
Missing, broken or boarded windows or doors, if the building is not vacant or
abandoned (§120-20A (2)(a»
REMEDY: Remove the boards used to cover the basement windows and
replace/install/repair the windows,

El

Broken glass, crumbling stone or brick or other conditions reflective of deterioration
or inadequate maintenance (§120-2OA (2)(b))
REMEDY: Repair ail crumbling brick and stone and other conditions reflective of
deterioration or inadequate maintenance.
.

□

A fence that is in a state of dilapidation or decay; (§ 120-20A (2)(o))

®

A collapsing or missing exterior wail, roof, floor, stairs, porch, railings, basement
hatchways, chimneys, gutters, awnings or other exterior features (§12O-20A (2)(d))
REMEDY: Repair the unstable front porch and rear exterior stairs and associated
railings, repair any/all missing/damaged gutters, repair chimney and other exterior
features in need of repair.

PageA13ofA15 .

El Siding or roofing that is seriously damaged, missing, faded or peeling (§12fl-20A (2)(e))
REMEDY: Repair damaged siding and roofing.
□ Unrepaired fire or water damage that has existed for longer than two months (§ 120-20A
<2X0).

□

A foundation that is structurally faulty (§120-20A (2)(g))

0 The outside structure walls are not weather- and watertight, that is evidenced by
such structure having any holes, loose boards, or any broken, cracked or damaged
siding that admits rain, cold air, dampness, rodents, insects or vermin (§120-20A
(2)(h))
REMEDY: Seal, patch or otherwise secure all holes, loose boards, or any broken,
cracked or damaged siding that admits rain, cold air, dampness, rodents, insects or
vermin.
February 14. 2018
Page 3

0 Garbage, rubbish, refuse, accumulating refuse, putrescibie items, trash or other
accumulated debris that is being stored or accumulated in the public view (§I20-20A
(2)0))
REMEDY: Remove all accumulated debris including but not limited to the pallets,
and discarded household items.

□

Parking lots in a state of disrepair or abandonment evidenced, for example, by cracks,
potholes, overgrowth of vegetation within the surface pavement or macadam, or within
medians and buffers (§12O-20A (2)0)

□

Shrubs, hedges, grass, plants, weeds or any other vegetation that, have been left to grow in
an unkempt manner that are covering or blocking means of egress or access to any
building or that are blocking, interfering with, or otherwise obstructing any sight line, road
sign, or emergency access to or at the property, when viewed from any property line (§12020A (2)(k))

0 Abandoned or inoperable vehicles or abandoned or inoperable property' are
improperly stored on the premises; (§120-20A (2)(1))
REMEDY: Removal or repair of the inoperable trailer lying beneath a fallen tree
from the property.

□

Abandoned or vacant buildings or structures that are devoid of water, sewer or other utility
function or service that has become an illegal residence (§ 120-20A (2)(m))

□ Grass or weeds that have reached a height greater than eight inches (§ 120-20A (2)(n))
□ Graffiti on buildings or structures. (§120-20A (2)(o))
□ Vacant or abandoned buildings must be boarded up as required by the Building Code. In
.addition, for any building that is vacant for more than two months, the plywood used to
board up the openings must be painted in a color to match the building. (§ 120-20A (3))
□ The property is a fire hazard as documented by the Fire Department. (§ 120-20A (4))
Page A14 of A15

□

The property provides rodent harborage or. infestations, as documented by the Health
Department. (§120-20A (5))

□

All equipment or other materials stored on the property must be free from rust and in good
working order. Abandoned appliances,'automobile parts, discarded household items and
piles of rotten lumber are prohibited from being stored on the property. Equipment and
material stored outside shall be stacked or arranged in an orderly fashion in a location
providing reasonable screening from neighbors and adjoining streets. (§120-20A (6))

BLIGHT LIEN
Pursuant to Chapter 120, Article IL Section 120-25 (C)(2) of the Middletown Code of Ordinances, if
you fail to pay the fine within fifteen (15) days of the date of this Citation, the Zoning/Wctlartds
Enforcement Officer, pursuant to C.G.S. §§ 7“l48(c)(7)(H)(xv), 7-148aa and 7-152c, as amended, is
authorized to obtain a judgment against you in the Superior Court and to place a lien against your
property in the amount of such judgment.
CRIMINAL VIOLATION
February 14.2018.

,

t'nj’C 4

Pursuant to Connecticut General Statutes § 7-148(c)(7)(H)(xv) and § 7~148o. as amended, any person
or entity who. alter written notice and a reasonable opportunity to fully remediate the blighted premises
within the time period prescribed in the Notice of Blight willfully continues to violate the provisions
of Chapter 120, Article 11 of the Middletown Code of Ordinances, may, pursuant to Section § 12025(C)(1) of the City of Middletowivs Blight Ordinance, be fined by the State of Connecticut not more
than TWO HUNDRED.FIFTY. DOLLARS.($250.00) FOR EACH DAY for which it. can be shown,
based on an actual inspection of the blighted premises on each such day, the blighted conditions
continued to exist after written notice to the owner or occupant. This section is designated as a violation
pursuant to Connecticut General Statutes § 53a-27.
ABA TEMENT OF VIOLATION(S)
Pursuant to C.G.S. § 7-J48(c)(7)(H)(xv), as amended, and Chapter 120. Article II, §§ 120-25(D) and
120-26 of the Middletown Code of Ordinances, the City may enter the blighted premises to remediate
the blighted conditions, and that in such cases, the City shall assess the costs incurred by the City of
Middletown for such remediation upon the owner or occupant of the blighted premises as a lien, or as
taxes pursuant to C.G.S § 49-73b and C.G.S. § 12-169b. as amended.
If you have any questions please feel free to contact me by email at michelle.ford@middletownct.gov
or by phone at 860-638-4837.
Sincerely,
f

Michelle T. Ford, CWB®, PWS, CESSWI
Acting Zoning & Wetlands Enforcement Officer
City of Middletown

Page A15 of A15

